                                                             O FFICE OF A UDIT S ERVICES , R EGION IV
                                                              61 F ORSYTH S TREET, SW, S UITE 3T41
                                                                               A TLANTA , GA 30303
April 24, 2012

Report Number: A-04-11-00078

Ms. Melissa Halstead Rhoades
Area Director and Medicare CFO
Financial Management Operations Division
TrailBlazer Health Enterprises, LLC
8330 LBJ Freeway, 11.2402
Dallas, TX 75234

Dear Mr. Rhoades:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Medicare Overpaid Some Fiscal Year 2008 and 2009
Jurisdiction 4 Inpatient Rehabilitation Facility Claims That Did Not Comply With Transfer
Regulations. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Eric Bowen, Audit Manager, at (404) 562-7789 or through email at
Eric.Bowen@oig.hhs.gov. Please refer to report number A-04-11-00078 in all correspondence.

                                             Sincerely,



                                             /Lori S. Pilcher/
                                             Regional Inspector General
                                              for Audit Services


Enclosure
Page 2 – Ms. Melissa Halstead Rhoades


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 355
Kansas City, MO 64106
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 MEDICARE OVERPAID SOME FISCAL
YEAR 2008 AND 2009 JURISDICTION 4
INPATIENT REHABILITATION FACILITY
CLAIMS THAT DID NOT COMPLY WITH
     TRANSFER REGULATIONS




                        Daniel R. Levinson
                         Inspector General

                            April 2012
                          A-04-11-00078
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

An inpatient rehabilitation facility (IRF) is a hospital or a subunit of a hospital whose primary
purpose is to provide intensive rehabilitation services to its inpatient population. Section 1886(j)
of the Social Security Act (the Act) established a Medicare prospective payment system for
IRFs. The system provides for a predetermined, per-discharge payment. The IRF uses
information from a patient assessment instrument to classify patients into distinct case-mix
groups based on clinical characteristics and expected resource use. Medicare makes a full case-
mix group payment to an IRF that discharges a beneficiary to home or to another institution that
is not covered by Medicare’s transfer regulations. However, pursuant to 42 CFR § 412.624(f),
Medicare generally pays a lesser amount for a transfer case, based on a per diem rate and the
number of days that the beneficiary spent in the IRF.

Federal regulations define a transfer case as one in which (1) the beneficiary’s IRF stay is shorter
than the average stay for nontransfer cases in the case-mix group and (2) the beneficiary is
transferred to another IRF; a short-term, acute-care prospective payment hospital; a long-term-
care hospital; or a nursing home that qualifies for Medicare or Medicaid payments. Whether
Medicare pays for a discharge or a transfer depends on the patient status code indicated on the
IRF’s claim.

Previous Office of Inspector General audits identified overpayments to transferring IRFs that did
not comply with Medicare’s transfer regulation. In response to our recommendations, Centers
for Medicare & Medicaid Services (CMS) implemented an edit in the Common Working File
(CWF) on April 1, 2007, to identify transfers improperly coded as discharges.

During fiscal years (FY) 2008 and 2009, CMS contracted with TrailBlazer Health Enterprises,
LLC (TrailBlazer), to serve as the Medicare Administrative Contractor for Jurisdiction 4. This
audit covered $1,436,770 in Medicare Part A payments related to 73 claims, with dates of service
ending in FY 2008 and 2009, submitted by 30 IRFs in Texas, Colorado, and Louisiana.

OBJECTIVE

Our objective was to determine whether Medicare paid certain FY 2008 and 2009 Jurisdiction 4
IRF claims in accordance with Medicare’s transfer regulations.

SUMMARY OF FINDINGS

Medicare overpaid some FY 2008 and 2009 Jurisdiction 4 IRF claims that did not comply with
transfer regulations. Because of system problems, TrailBlazer did not receive the CWF edit
alerts notifying it that the miscoded claims required payment adjustment. Accordingly,
Trailblazer could not respond appropriately to the CWF edit alerts, and it incorrectly paid 73
transfer claims as discharges. As a result, Medicare overpaid 30 IRFs by $384,919 for FY 2008
and 2009.




                                                 i
RECOMMENDATIONS

We recommend that TrailBlazer:

   •   recover $384,919 in overpayments,

   •   ensure that it receives and properly addresses future CWF edit alerts in a timely manner,
       and

   •   educate Jurisdiction 4 IRFs on the importance of reporting the correct patient status code
       on transfer claims.

TRAILBLAZER HEALTH ENTERPRISES, LLC, COMMENTS

In written comments on our draft report, TrailBlazer generally agreed with our recommendations
and described corrective actions that it had taken or planned to take in response to our
recommendations. TrailBlazer’s comments are included in their entirety as the Appendix.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page


INTRODUCTION ................................................................................................................ 1

          BACKGROUND ...........................................................................................................        1
              Prospective Payment System for Inpatient Rehabilitation Facilities .................                                      1
              Transfer Payments for Inpatient Rehabilitation Facilities .................................                               1
              Inpatient Rehabilitation Facility Pricer Program ...............................................                          2
              Prior Office of Inspector General Reports and Centers for Medicare &
                Medicaid Services Corrective Actions............................................................                        2
              TrailBlazer Health Enterprises, LLC .................................................................                     2

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................                                   2
               Objective ............................................................................................................   2
               Scope ................................................................................................................   3
               Methodology ......................................................................................................       3

FINDING AND RECOMMENDATIONS ............................................................................. 4

          PROGRAM REQUIREMENTS ....................................................................................                     4
              Federal Regulations ...........................................................................................           4
              Centers for Medicare & Medicaid Services Guidance ......................................                                  4
              TrailBlazer Policies and Procedures ..................................................................                    5

          MEDICARE OVERPAYMENTS FOR MISCODED INPATIENT
          REHABILITATION FACILITY CLAIMS ................................................................... 5

          SYSTEM PROBLEMS .................................................................................................. 5

          RECOMMENDATIONS ............................................................................................... 5

          TRAILBLAZER HEALTH ENTERPRISES, LLC, COMMENTS .............................. 6

APPENDIX

          TRAILBLAZER HEALTH ENTERPRISES, LLC, COMMENTS




                                                                    iii
                                                INTRODUCTION

BACKGROUND

Prospective Payment System for Inpatient Rehabilitation Facilities

An inpatient rehabilitation facility (IRF) is a hospital or a subunit of a hospital whose primary
purpose is to provide intensive rehabilitation services to its inpatient population. Section 1886(j)
of the Social Security Act (the Act) established a Medicare prospective payment system for
IRFs. The Centers for Medicare & Medicaid Services (CMS), which administers the Medicare
program, began implementing the prospective payment system for cost-reporting periods
beginning on or after January 1, 2002. The system provides for a predetermined, per-discharge
payment. The IRF uses information from a patient assessment instrument to classify patients
into distinct case-mix groups based on clinical characteristics and expected resource use.

Transfer Payments for Inpatient Rehabilitation Facilities

Under the IRF prospective payment system, Medicare makes a full case-mix group payment to
an IRF that discharges a beneficiary to home or to another institution that is not covered by
Medicare’s transfer regulations. However, pursuant to 42 CFR § 412.624(f), Medicare generally
pays a lesser amount for a transfer case, based on a per diem rate and the number of days that the
beneficiary spent in the IRF. Federal regulations define a transfer case as one in which:

       •   the beneficiary’s IRF stay is shorter than the average stay for the non-transfer cases in the
           case-mix group and

       •   the beneficiary is transferred to another IRF; a short-term, acute-care prospective
           payment hospital; a long-term-care hospital; or a nursing home that qualifies for
           Medicare or Medicaid payments.

Whether Medicare pays for a discharge or a transfer depends on the patient status code indicated
on the IRF’s claim. Medicare pays the full discharge payment for two status codes: code 01
indicates a discharge to home and code 06 indicates a discharge to home with home health
services. However, Medicare pays the transfer amount for the following patient status codes:

       •   02 — a short-term, acute-care inpatient hospital;

       •   03 — a skilled nursing facility;

       •   61 — a hospital-based, Medicare-approved swing bed 1 within the IRF;

       •   62 — another IRF;


1
    A swing bed is a hospital bed used to provide both long-term-care and acute care.




                                                           1
    •   63 — a long-term-care hospital; and

    •   64 — a Medicaid-only nursing facility.

Inpatient Rehabilitation Facility Pricer Program

To price IRF claims, CMS developed the IRF Pricer program. This program uses information
specific to each IRF and information from each claim, including the patient status code, to
calculate the price on which to base the prospective payment. Provider claims must indicate the
proper patient status codes because the IRF Pricer program uses those codes in determining
whether the claims will be paid as discharges or transfers. The IRF Pricer program automatically
calculates payments for claims with codes 02, 03, 61, 62, 63, or 64 at the per diem rate for
transfers.

Prior Office of Inspector General Reports and Centers for Medicare & Medicaid Services
Corrective Actions

Previous Office of Inspector General audits identified Medicare overpayments that occurred
because IRFs did not comply with Medicare’s transfer regulation. 2 In those reports, we
recommended that CMS implement edits in the Common Working File (CWF) that match
beneficiary discharge dates with admission dates to other providers to identify claims potentially
miscoded as discharges rather than transfers. In response to our recommendations, CMS
implemented an edit on April 1, 2007. CMS’s CWF edit identifies IRF claims with an improper
patient discharge status code and produces an unsolicited informational response (edit alert) to
the appropriate contractor.

TrailBlazer Health Enterprises, LLC

During fiscal years (FY) 2008 and 2009, CMS contracted with TrailBlazer Health Enterprises,
LLC (TrailBlazer), to serve as the Medicare Administrative Contractor for Jurisdiction 4.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicare paid certain fiscal year (FY) 2008 and 2009
Jurisdiction 4 IRF claims in accordance with Medicare’s transfer regulations.




2
  Our previous reports addressed IRF claims coded as discharges to home (report number A-04-04-00008, issued
September 11, 2006), discharges to home with home health services (report number A-04-04-00013, issued
November 2, 2006), and IRF claims coded as discharges to home or discharges to home with home health services
(report number A-04-09-00059, issued June 29, 2010).



                                                      2
Scope

Our review covered $1,436,770 in Medicare Part A payments related to 73 transfer claims, with
dates of service ending in FYs 2008 and 2009, submitted by 30 IRFs in Texas, Colorado, and
Louisiana. After initial claims payment, the CWF edit identified these 73 claims as IRF transfers
that were incorrectly coded and paid as discharges to home or discharges to home with home
health services.

Our objective did not require an understanding or assessment of the complete internal control
structure of TrailBlazer. Therefore, we limited our review to obtaining a general understanding of
the IRF prospective payment system and TrailBlazer’s policies and procedures for reviewing claims
identified by the CWF.

We conducted our fieldwork from March through October 2011.

Methodology

To accomplish our objective, we:

      •    reviewed Federal laws, regulations, and CMS guidance concerning IRF transfers;

      •    extracted IRF paid claims from CMS’s National Claims History File for FYs 2008 and
           2009;

      •    refined the nationwide file by excluding certain claims, such as claims with lengths of
           stay equal to or greater than the average length of stay for the case-mix group, outlier
           claims, claims for deceased beneficiaries, claims not primarily paid by Medicare, and
           claims paid to Maryland providers; 3

      •    identified 73 IRF claims paid by TrailBlazer with patient status codes 01 or 06 that
           indicated discharge;

      •    reviewed CMS’s CWF claims history for the 73 claims to verify that the selected claims
           had not been canceled or superseded by corrected claims;

      •    sent the 73 claims to TrailBlazer officials to verify that the claims were miscoded and to
           determine the cause of the miscoding;

      •    interviewed TrailBlazer officials to understand how they processed IRF claims and to
           determine why TrailBlazer made payments for the miscoded claims;

      •    used CMS’s Pricer program to reprice each improperly paid claim in our sample to
           determine the transfer payment amount, compare the repriced payment with the actual
           payment, and determine the value of the overpayment; and

3
    Maryland is exempt from the prospective payment system.


                                                        3
   •   discussed the results of our review with TrailBlazer officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATIONS

Medicare overpaid some FY 2008 and 2009 Jurisdiction 4 IRF claims that did not comply with
transfer regulations. Because of system problems, TrailBlazer did not receive the CWF edit
alerts notifying it that the miscoded claims required payment adjustment. Accordingly,
Trailblazer could not respond appropriately to the CWF edit alerts, and it incorrectly paid 73
transfer claims as discharges. As a result, Medicare overpaid 30 IRFs by $384,919 for FYs 2008
and 2009.

PROGRAM REQUIREMENTS

Federal Regulations

Section 1886(j)(1)(E) of the Social Security Act authorized the Secretary of the Department of
Health and Human Services to adjust prospective payments to account for the early transfer of a
beneficiary from an IRF to certain other facilities. Pursuant to implementing regulations,
42 CFR §§ 412.602 and 412.624(f)(1), IRFs receive an adjusted prospective payment if (1) the
beneficiary’s IRF stay is shorter than the average stay for nontransfer cases in the case-mix
group and (2) the beneficiary is transferred to another IRF; a short-term, acute-care prospective
payment hospital; a long-term-care hospital; or a nursing home that qualifies for Medicare or
Medicaid payments.

Pursuant to 42 CFR § 412.624(f)(2), Medicare pays for transfer cases on a per diem basis. CMS
calculates the per diem payment rate by dividing the full case-mix group payment rate by the
average length of stay for the case-mix group. CMS then multiplies the per diem rate by the
number of days that the beneficiary stayed in the IRF before being transferred. Medicare makes
an additional half-day payment for the first day.

Centers for Medicare & Medicaid Services Guidance

The Medicare Claims Processing Manual, chapter 3, section 140.3, lists the patient status
codes that identify a transfer case, the code definitions, and examples of appropriate use.
When an IRF uses these transfer codes, the claims processing system generates a per diem
transfer payment to the IRF rather than a full case-mix group payment.

Effective April 1, 2007, CMS implemented a CWF edit that identifies IRF transfer claims
miscoded as discharges. When the CWF edit identifies transfer claims prior to payment, it cancels
the claim. When it identifies a claim after payment, the CWF generates an edit alert that requires the
Medicare Administrative Contractor to take action to correct the claim.


                                                  4
TrailBlazer Policies and Procedures

TrailBlazer policy and procedures require taking appropriate action to correctly process
inpatient bills with improper patient discharge status codes. TrailBlazer should be
notified through an edit alert report that the CWF has identified a miscoded claim, and
the claims processor at TrailBlazer researches each claim to verify the discharge and
admission. Based on the admitting facility type, the claims processor corrects the patient
discharge status code to adjust the Medicare payment to the correct amount.

MEDICARE OVERPAYMENTS FOR MISCODED INPATIENT REHABILITATION
FACILITY CLAIMS

Medicare overpaid some FY 2008 and 2009 Jurisdiction 4 IRF claims that did not comply with
transfer regulations because TrailBlazer had not received the CWF edit alerts notifying it that the
miscoded claims required payment adjustment. TrailBlazer had recognized that the CWF edit
alerts were not being received and had notified the CWF maintainer. Additionally, TrailBlazer
requested the available missing CWF edit alert reports and corrected those claims. Despite its
efforts, not all CWF edit alert reports became available to TrailBlazer; therefore, Trailblazer
could not respond appropriately to the CWF edit alerts, and it incorrectly paid 73 transfer claims
as discharges.

SYSTEM PROBLEMS

System problems interfered with TrailBlazer’s ability to receive all edit alerts notifying it that
miscoded claims required payment adjustment. As a result, Medicare overpaid 30 IRFs by
$384,919 for FY 2008 and 2009.

According to TrailBlazer, it identified and corrected the system problems that caused the
miscoded claims to remain uncorrected. Furthermore, during our audit, TrailBlazer adjusted all
73 miscoded claims.

RECOMMENDATIONS

We recommend that TrailBlazer:

   •   recover $384,919 in overpayments,

   •   ensure that it receives and properly addresses future CWF edit alerts in a timely manner,
       and

   •   educate Jurisdiction 4 IRFs on the importance of reporting the correct patient status code
       on transfer claims.




                                                  5
TRAILBLAZER HEALTH ENTERPRISES, LLC, COMMENTS

In written comments on our draft report, TrailBlazer generally agreed with our recommendations
and described corrective actions that it had taken or planned to take in response to our
recommendations. TrailBlazer’s comments are included in their entirety as the Appendix.




                                              6
APPENDIX
         APPENDIX: TRAILBLAZER HEALTH ENTERPRISES, LLC, COMMENTS 

                                                                                                               Page 1 of2

                                                                                                         MEDICARE

CENTERS for MEDICARE & MEDICAID SERVICES


    March 22, 2012

    Lori S. Pilcher
    Regional Inspector General for Audit Services
    Office of Inspector General
    Office of Audit Services, Region IV
    61 	Forsyth Street SW, Suite 3T41
    Atlanta, GA 30303

    Report Number: A-04-11-00078

    Dear Ms. Pilcher:

    We received the February 29, 2012, draft report entitled "Medicare Overpaid Some Fiscal Year
    2008 and 2009 Jurisdiction 4 Inpatient Rehabilitation Facility Claims That Did Not Comply
    With Transfer Regulations." In the draft report, the OIG recommended that TrailBlazer:
       • 	 Recover $384,919 in overpayments;
       • 	 Ensure that it receives and properly addresses future CWF edit alerts in a timely manner;
           and
       • 	 Educate Jurisdiction 4 IRFs on the importance of reporting the correct patient status code
           on transfer claims.

    Please consider the following responses to these recommendations for inclusion in the final 

    report: 


         Recovery of Overpayments: TrailBlazer processed all 73 claims requiring adjustment and
         recovered the $384,919 due the Medicare program.

        Receive and Process CWF Edit Alerts: TrailBlazer processes all CWF edit alerts received
        in a timely manner. However, TrailBlazer is not the standard system maintainer and
        therefore, can not ensure timely receipt of CWF edit alerts. As noted in the draft report, these
        overpayments resulted from a problem with the FISS shared system which prevented
        TrailBlazer from receiving alerts/unsolicited responses. This problem impacted all
        contractors. It was reported to FISS immediately; however, it was not corrected for six
        months. In the future, if TrailBlazer identifies a problem preventing receipt of CWF edit
        alerts/unsolicited responses, we will report the problem to the responsible entity, i.e. FISS.
        Additionally, we will report the problem to the Medicare Administrative Contractor (MAC)
        Jurisdiction 4 Contracting Officer's Representative (COR), so that alternate arrangements
        can be made for communicating the CWF edit alerts/unsolicited responses to us in a timely
        manner.

        Provider Education Activities: TrailBlazer provides a Part A Beginner's Guide to
        Medicare to assist providers with basic Part A information to help ensure Part A claims are
        submitted properly.

                                  TrailBlazer Health Enterprises, LLC
                                    Executive Center 111.8330 LBJ Freeway. Dallas, TX 75243-1213

                                           A Medicare Administrative Contractor
                                                                                                   ISO
                                                                                                   CERTI'IEO
                                                                                        Page 2 of2
Lori S. Pilcher
March 22, 2012
Page 2 of2


        http://www.trailblazerhealth.com/Publications/Training%20Man\laliMedicareBasicsManual.
        QQf
        TrailBlazer also offers the TrailBlazer Inpatient Services manual, which includes IRF
        policies, billing information, requirements, revenue codes, form locators, discharge status
        information, initiatives and significant changes to the Medicare program.
        http ://www.trailblazerhealth.com/Publications/Training%20ManualllnpatientServicesManual
        .pdf

    Part A Beginner's Guide to Medicare and Inpatient Services training are routinely offered
    through Web-based training events. The PowerPoint presentations are available for
    download and, upon completion of these events, the recorded training sessions are posted on
    the TrailBlazer Web site for reference.
    http://www.trailblazerhealth.com/Ed ucation/Encore WBTs.aspx ?DomainID= I

    Providers may also refer to TrailBlazer's Part A UB-04 Discharge Status Codes (Form
    Locator 17) job aid (http://www.trailblazerhealth.com/Publications/Job%20Aid/ub­
    92a discharge.pdf ) for a list of patient discharge status codes and the IRF Web page
    (http://www.trailblazerhealth.com/Facility%20Types/IRFIdefault.aspx?DomainID= 1)            for
    information and links to educational resources. The IRF Web page contains a link to the
    notice posted on March 8, 2012, as a result of this OIG audit report. This notice was also
    sent in listserv and will be added to the TrailBlazer eBulletin for further exposure. In
    addition, these findings will be addressed in future online training sessions when appropriate.

If you have any questions regarding our response, please contact me.

Sincerely,

lsi Melissa Halstead Rhoades

Melissa Halstead Rhoades
Area Director & Medicare CFO

cc: 	      Susan Oken, J4 MAC Contracting Officer' s Representative, CMS
           Gil R. Glover, President & Chief Operating Officer, TrailBlazer
           Scott J. Manning, Vice President, Financial Management Operations, TrailBlazer
           Kevin Bidwell, Vice President & Compliance Officer, TrailBlazer
